      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General


                                                                           Washington, D.C. 20201




September 22, 2011

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Review of Medicare Contractor Information Security Program Evaluations for
               Fiscal Year 2009 (A-18-10-30300)


The attached final report provides the results of our Medicare contractor information security
program evaluations for fiscal year 2009.

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 added
information security requirements for Medicare administrative contractors, fiscal intermediaries,
and carriers to section 1874A of the Social Security Act (the Act) (42 U.S.C. § 1395kk:-l).
Pursuant to section 1874A of the Act, each Medicare contractor must have its information
security program evaluated annually by an independent entity. Section 1874A of the Act further
requires the Inspector General, Department of Health and Human Services, to submit to
Congress annual reports on the results of these evaluations, to include assessments of their scope
and sufficiency.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities,
and Information Technology Audits, at (202) 619-1175 or through email at
Lori.Pilcher@oig.hhs.gov. We look forward to receiving your final management decision within
6 months. Please refer to report number A-18-10-30300 in all correspondence.


Attachment
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




REVIEW OF MEDICARE CONTRACTOR
     INFORMATION SECURITY
   PROGRAM EVALUATIONS FOR
       FISCAL YEAR 2009




                        Daniel R. Levinson
                         Inspector General

                         September 2011
                          A-18-10-30300
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 added
information security requirements for Medicare administrative contractors (MAC), fiscal
intermediaries, and carriers to the Social Security Act (the Act). These contractors process and
pay Medicare fee-for-service claims. Each Medicare contractor must have its information
security program evaluated annually by an independent entity, and these evaluations must
address the eight major requirements enumerated in the Federal Information Security
Management Act of 2002 (FISMA). To comply with this provision, the Centers for Medicare
& Medicaid Services (CMS) contracted with PricewaterhouseCoopers (PwC) to evaluate
information security programs at the MACs, fiscal intermediaries, and carriers using a set of
agreed-upon procedures.

The Act also requires evaluations of the information security controls for a subset of systems but
does not specify the criteria for these evaluations. To satisfy this requirement, CMS developed
an information security assessment methodology to test segments of the claims processing
systems at Medicare data centers, which operate the computer systems that process and pay
Medicare fee-for-service claims. CMS contracted with iFed, LLC (iFed), to perform technical
assessments at Medicare data centers using the assessment methodology.

The Inspector General, Department of Health and Human Services, must submit to Congress
annual reports on the results of these evaluations, to include assessments of their scope and
sufficiency. This report fulfills that responsibility for fiscal year (FY) 2009.

OBJECTIVES

Our objectives were to (1) assess the scope and sufficiency of Medicare contractor information
security program evaluations and data center technical assessments and (2) report the results of
those evaluations and assessments.

SUMMARY OF RESULTS

PwC’s evaluations of the contractor information security programs were adequate in scope and
were sufficient. iFed’s assessments for most of the data centers tested were adequate in scope
and were sufficient. PwC reported a total of 94 gaps at 21 Medicare contractors. iFed reported a
total of 67 gaps at 7 data centers.

Assessment of Scope and Sufficiency

PwC’s evaluations of the contractor information security programs adequately encompassed in
scope and sufficiency the eight FISMA requirements referenced in the Act.

iFed’s evaluations of the information security controls at most of the Medicare data centers
tested were adequate in scope and were sufficient. However, for two data centers, we could not

                                                 i
determine whether the scope was adequate and the evaluations were sufficient because of several
issues with its working papers, such as insufficient evidence that all testing procedures had been
completed.

Results of Evaluations and Assessments

The results of the contractor information security program evaluations and data center technical
assessments are presented in terms of gaps, which are defined as the differences between FISMA
or CMS core security requirements and the contractors’ implementation of them.

Results of Contractor Information Security Program Evaluations

In the 21 PwC evaluation reports for FY 2009, which covered all MACs, fiscal intermediaries,
and carriers, PwC identified a total of 94 gaps. The number of gaps per contractor ranged from 0
to 15 and averaged 4. The most gaps occurred in the following FISMA control areas: testing of
information security controls (22 gaps at 11 contractors), security program and system security
plans (17 gaps at 9 contractors), security awareness training (16 gaps at 5 contractors), and
continuity of operations planning (13 gaps at 5 contractors).

The number of gaps reported in the PwC FY 2009 evaluation reports decreased by 42 percent
when compared with the results for FY 2008. While the number of contractors with no gaps
increased by 6 (150 percent), the number of contractors with 10 or more gaps stayed the same
at 5.

Results of Data Center Technical Assessments

The 7 Medicare data center technical assessment reports prepared by iFed identified a total of
67 gaps. The number of gaps reported per data center ranged from 0 to 44. Most of the security
gaps occurred in the following security control categories: configuration management (28 gaps
at 2 data centers), access control (16 gaps at 2 data centers), media protection (7 gaps at 2 data
centers), and system and services acquisition (6 gaps at 3 data centers).

The total number of gaps identified in FY 2009 (67) was 19 gaps higher than the number
identified in FY 2008 (48). However, this was mainly because 1 contractor had 44 gaps
identified by a vulnerability scan. CMS uses a rotational approach in performing its technical
assessments of data centers. Some categories are not tested every year. We did not perform a
detailed comparison of the number of gaps identified within the categories tested for the 2 FYs
because the same categories were not tested by iFed at all data centers assessed in FY 2009.

Of the 67 gaps iFed identified at the 7 data centers, 18 gaps were resolved and closed during or
after iFed’s onsite visits. Hence, a total of 49 gaps at data centers required corrective action in
FY 2009.




                                                  ii
RECOMMENDATION

We recommend that CMS review all contractor documentation related to future data center
technical assessments and ensure that the work performed complies with CMS contractual
requirements. At a minimum, this should include a review of test plans to ensure that the
contractor has completed all required testing procedures and a review of contractor working
papers to verify that reported gaps have been adequately supported.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS concurred with our recommendation. CMS also
stated that it would take the appropriate actions to address the identified issues. We have
included CMS’s comments in their entirety as Appendix G.




                                               iii
                                                  TABLE OF CONTENTS


                                                                                                                             Page

INTRODUCTION............................................................................................................. 1

          BACKGROUND .....................................................................................................1
              The Medicare Program ................................................................................. 1
              Medicare Prescription Drug, Improvement, and Modernization
               Act of 2003 ................................................................................................ 1
              Centers for Medicare & Medicaid Services Evaluation Process
               for Fiscal Year 2009................................................................................... 2

          OBJECTIVES, SCOPE, AND METHODOLOGY .................................................3
              Objectives ..................................................................................................... 3
              Scope ............................................................................................................. 3
              Methodology ................................................................................................. 3

RESULTS OF REVIEW .................................................................................................. 4

          ASSESSMENT OF SCOPE AND SUFFICIENCY ................................................4

          RESULTS OF MEDICARE CONTRACTOR INFORMATION SECURITY
          PROGRAM EVALUATIONS.................................................................................5
              Testing of Information Security Controls ..................................................... 6
              Security Program and System Security Plans ............................................... 7
              Security Awareness Training ........................................................................ 8
              Continuity of Operations Planning ............................................................... 8

          RESULTS OF DATA CENTER TECHNICAL ASSESSMENTS .........................9
              Configuration Management ........................................................................ 11
              Access Control ............................................................................................ 12
              Media Protection ......................................................................................... 12
              System and Services Acquisition ................................................................ 12

          CONCLUSION ......................................................................................................13

          RECOMMENDATION .........................................................................................13

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ..........13

APPENDIXES

        A: ASSESSMENT OF SCOPE AND SUFFICIENCY FOR THE iFed DATA CENTER
           ASSESSMENTS


                                                                     iv
B: LIST OF GAPS BY FEDERAL INFORMATION SECURITY MANAGEMENT ACT
   OF 2002 CONTROL AREA AND MEDICARE CONTRACTOR

C: PERCENTAGE CHANGE IN GAPS PER MEDICARE CONTRACTOR

D: MEDICARE CONTRACTOR CHANGE IN TOTAL GAPS BY FEDERAL
   INFORMATION SECURITY MANAGEMENT ACT OF 2002 CONTROL AREA

E: RESULTS OF MEDICARE CONTRACTOR EVALUATIONS FOR FEDERAL
   INFORMATION SECURITY MANAGEMENT ACT OF 2002 CONTROL AREAS
   WITH THE GREATEST NUMBER OF GAPS

F: LIST OF GAPS BY NATIONAL INSTITUTE OF STANDARDS AND
   TECHNOLOGY SECURITY CONTROL AREA AND DATA CENTER

G: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                             v
                                            INTRODUCTION

BACKGROUND

The Medicare Program

The Centers for Medicare & Medicaid Services (CMS) administers the Medicare program.
Medicare is a health insurance program for people age 65 or older, people under age 65 with
certain disabilities, and people of all ages with end-stage renal disease. In fiscal year (FY) 2009,
Medicare paid more than $430 billion on behalf of more than 46 million Medicare beneficiaries.
CMS contracts with Medicare Administrative Contractors (MAC), fiscal intermediaries, and
carriers to administer Medicare benefits paid on a fee-for-service basis. CMS uses enterprise
data centers to process all Medicare fee-for-service claims.

In FY 2009, 11 distinct entities served as fiscal intermediaries, carriers, and Part A/B MACs.
Two external entities operated enterprise data centers to process all Medicare fee-for-service
claims. Thus, 13 distinct entities processed and paid Medicare fee-for-service claims.

Medicare Prescription Drug, Improvement, and Modernization Act of 2003

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (MMA) added
information security requirements for MACs, fiscal intermediaries, and carriers to section 1874A
of the Social Security Act (the Act). 1 (See 42 U.S.C. § 1395kk-1.) Pursuant to section
1874A(e)(2)(A) of the Act, each MAC, fiscal intermediary, and carrier must have its information
security program evaluated annually by an independent entity. This section requires that these
evaluations address the eight major requirements enumerated in the Federal Information Security
Management Act of 2002 (FISMA). (See 44 U.S.C. § 3544(b).) These requirements, referred to
as “FISMA control areas” in this report, are:

        1. periodic risk assessments,

        2. policies and procedures to reduce risk,

        3. security program and system security plans,

        4. security awareness training,

        5. testing of information security controls,

        6. remedial actions,




1
 The MMA contracting reform provisions added to section 1874A of the Act replace existing fiscal intermediaries
and carriers with MACs, which are competitively selected. Until all MACs are in place, the requirements of
section 1874A also apply to fiscal intermediaries and carriers.

                                                       1
       7. incident response, and

       8. continuity of operations planning.

Section 1874A(e)(2)(A)(ii) of the Act requires that the effectiveness of information security
controls be tested for an appropriate subset of Medicare contractors’ information systems.
However, this section does not specify the criteria for evaluating these security controls. CMS
developed an information security assessment methodology to comply with this provision.

Additionally, section 1874A(e)(2)(C)(ii) of the Act requires the Inspector General of the
Department of Health and Human Services to submit to Congress annual reports on the results of
such evaluations, including assessments of their scope and sufficiency. This report fulfills that
responsibility for FY 2009.

Centers for Medicare & Medicaid Services Evaluation Process for Fiscal Year 2009

CMS developed agreed-upon procedures (AUP) for the program evaluation based on the
requirements of section 1874A(e)(1) of the Act, FISMA, information security policy and
guidance from the Office of Management and Budget and the National Institute of Standards and
Technology (NIST), and the Government Accountability Office’s (GAO) Federal Information
Systems Controls Audit Manual (FISCAM). The independent auditors, PricewaterhouseCoopers
(PwC), under contract with CMS, used the AUPs to evaluate the information security programs
at 11 entities. Many of the entities had multiple contracts with CMS to fulfill their
responsibilities as Medicare fiscal intermediaries, carriers, A/B MACs, and Durable Medical
Equipment MACs. Testing was performed for each of the contracted services. As a result, PwC
performed evaluations and issued separate reports for 21 MACs, fiscal intermediaries, and
carriers. The AUPs are the same as those used in FY 2008.

To comply with the section 1874A(e)(2)(A)(ii) requirement to test the effectiveness of
information security controls for an appropriate subset of contractors’ information systems, CMS
contracted with iFed, LLC (iFed), to plan, develop, and implement a comprehensive program to
perform testing of information security controls at seven Medicare data centers (five fiscal
intermediaries’ data centers and two enterprise data centers). iFed performed the assessments
and issued separate reports for each of the seven Medicare data centers. Beginning in FY 2010,
CMS contracted with PwC to perform the testing of information security controls at the
Medicare data centers at the same time PwC evaluates the information security programs at the
MACs, fiscal intermediaries, and carriers.

Table 1 summarizes the change in the number of Medicare contractors and data centers tested.
In FY 2008, there were 26 Medicare contractors and 8 Medicare data centers tested. Changes
during FY 2009 resulted in the testing of 21 Medicare contractors and 7 Medicare data centers.




                                                2
    Table 1: Change in the Number of Medicare Contractors and Data Centers Tested
                                                                   Medicare    Medicare
                                                                  Contractors Data Centers
Ending Balance, FY 2008                                                26           8
Less: Entities that were no longer in the Medicare program by the       7           1
end of FY 2009
Add: MACs                                                               2
Ending Balance, FY 2009                                                21           7

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to (1) assess the scope and sufficiency of Medicare contractor information
security program evaluations and data center technical assessments and (2) report the results of
those evaluations and assessments.

Scope

We evaluated the FY 2009 results of the independent evaluations and technical assessments of
Medicare contractors’ information security programs. Our review did not include an evaluation
of internal controls. We performed our reviews of PwC and iFed working papers at CMS
headquarters in Baltimore, Maryland, and at Office of Inspector General regional offices.

Methodology

To accomplish our objectives, we performed the following steps:

        •    To assess the scope of the evaluations of contractor information security programs,
             we determined whether the AUPs included the eight FISMA control requirements
             enumerated in section 1874A(e)(1) of the Act.

        •    To assess the sufficiency of the evaluations of contractor information security
             programs, we reviewed PwC working papers supporting the evaluation reports to
             determine whether PwC completed the AUPs listed in the reports. We also
             determined whether PwC conducted the evaluations in accordance with attestation
             engagement standards established by the American Institute of Certified Public
             Accountants and in accordance with Government Auditing Standards. In addition, we
             determined whether the evaluation reports encompassed the eight FISMA control
             areas.

        •    To assess the scope of the data center technical assessments, we reviewed the contract
             and statement of work between CMS and iFed and verified that iFed performed the
             work that CMS had specified.



                                                 3
        •    To assess the sufficiency of the data center technical assessments, we reviewed
             working papers to verify that iFed completed all test procedures, reported all
             medium- and high-risk gaps, and adequately supported all reported results with
             sufficient and appropriate evidence. 2

        •    To report on the results of the iFed evaluations and technical assessments, we
             aggregated the results contained in the individual contractor evaluation reports and
             data center technical assessment reports. We used the business risks listed in the
             individual technical assessment reports to aggregate the results. For the PwC
             evaluations, we used the number of gaps listed in the individual contractor evaluation
             reports to aggregate the results. In some instances, several gaps were noted under
             multiple FISMA control subcategories. We counted duplicate gaps listed in a FISMA
             control area only once.

We conducted this performance audit in accordance with generally accepted government
auditing standards, except that we did not obtain comments from iFed or PwC. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

                                          RESULTS OF REVIEW

PwC’s evaluations of the contractor information security programs were adequate in scope and
were sufficient. The majority of data center technical assessments performed by iFed were
adequate in scope and were sufficient. PwC reported a total of 94 gaps at 21 Medicare
contractors. iFed reported a total of 67 gaps at 7 data centers. Gaps are defined as the difference
between FISMA or CMS core security requirements and the contractors’ implementation of
them.

ASSESSMENT OF SCOPE AND SUFFICIENCY

PwC’s evaluations of the contractor information security programs adequately encompassed in
scope and sufficiency the eight FISMA requirements referenced in section 1874A(e)(1) of the
Act.

The scope of the work and sufficiency of documentation for all reported gaps were adequate for
the majority of the data center technical assessments. CMS’s contract with iFed provided for the
planning, development, and implementation of a comprehensive program to perform testing of
information security controls at Medicare data centers.



2
  We present the results of the Medicare contractor information security program evaluations in terms of gaps,
which are defined as the differences between FISMA or CMS core security requirements and the contractors’
implementation of those requirements.


                                                         4
However, the test plan documentation supplied by iFed for two of the seven data centers
(29 percent) did not contain sufficient evidence that all of the testing procedures were performed.
Additionally, for these two data centers, we were unable to trace all gaps presented in iFed’s
reports to supporting documentation in the working papers. Lastly, for one of the seven data
centers (14 percent), we were not able to determine whether iFed included all medium- and
high-risk gaps in the report because of inadequate working paper references in the test scripts.
See Appendix A for our analysis of the iFed data center assessments.

RESULTS OF MEDICARE CONTRACTOR INFORMATION SECURITY PROGRAM
EVALUATIONS

As shown in Table 2, the 21 evaluation reports identified a total of 94 gaps. The average number
of gaps per contractor was four. The number of gaps per contractor ranged from 0 to 15 for
FY 2009. See Appendix B for a list of gaps per control area by contractor.

                        Table 2: Range of Medicare Contractor Gaps
                                                Number of Contractors With
                Number of        Total                     2–5      6–9    10+
        FY      Contractors      Gaps     0 Gaps 1 Gap    Gaps     Gaps    Gaps
       2008         26            161        4     3        8        6      5
       2009         21             94       10     0        3        3      5

The number of gaps reported in the PwC FY 2009 evaluation reports decreased by 42 percent
and the average number of gaps per contractor decreased by 33 percent when compared with the
results for FY 2008. While the number of contractors with no gaps increased by 6 (150 percent),
the number of contractors with 10 or more gaps remained the same at 5. Of the 19 contractors
that were in the program in FY 2008 and FY 2009, 12 contractors had fewer gaps in FY 2009,
3 had more gaps, and 4 had the same number of gaps. See Appendix C for the FYs 2008–2009
percentage change in gaps per Medicare contractor.

Table 3 summarizes the gaps found in each FISMA control area in FYs 2008 and 2009. Three of
the eight FISMA control areas had an increase in gaps for FY 2009. (Appendix D summarizes
the changes in a graph.)




                                                 5
      Table 3: Gaps by Federal Information Security Management Act Control Area
                                                                            No. of Contractors
                                     Impact Levels        No. of Gaps       With One or More
                                       of FISMA            Identified             Gap(s)
              FISMA                  Control Area        FY         FY        FY         FY
          Control Area               Subcategories      2008       2009      2008       2009
Periodic risk assessments            High/Medium          2           3          2         3
Policies and procedures to reduce
                                          High           23         11          14           7
risk
Security program and system
                                     High/Medium         31         17          16           9
security plans
Security awareness training             Medium           14         16            9          5
Testing of information security
                                          High           50         22          20         11
controls
Remedial actions                         High           15           8           9           8
Incident response                        High            1           4           1           4
Continuity of operations planning    High/Medium        25          13          11           5
  Total                                                161          94

The Medicare contractor information security program evaluations covered several subcategories
within each FISMA control area. The “impact level” shown in Table 3 refers to the possible
level of adverse impact that could result from successful exploitation of gaps in any of the
subcategories depending on the organization’s mission and criticality and the sensitivity of the
systems and data involved. CMS and PwC developed ratings of high, medium, or low impact for
the subcategories. The actual ratings assigned to the subcategories were all high or medium
impact and were PwC’s assessments. It is important to note that the impact levels were assigned
to subcategories of the FISMA control areas, not to individual gaps identified within the control
areas or subcategories. Individual gaps were assigned an overall risk level on a subjective basis
by PwC after taking into consideration the impact and likelihood of occurrence. However, as
stated in NIST Special Publication (SP) 800-115, Technical Guide to Information Security
Testing and Assessment, section 4.3, it is difficult to identify the risk level of individual
vulnerabilities because they rarely exist in isolation.

The following sections discuss the four FISMA control areas containing the most gaps. See
Appendix E for descriptions of each subcategory tested for the four control areas.

Testing of Information Security Controls

According to NIST SP 800-53, Recommended Security Controls for Federal Information
Systems and Organizations, Control CA-2, the effectiveness of information security policies,
procedures, practices, and controls should be tested and evaluated at least annually.
NIST SP 800-115, section 2.3, notes that security testing enables organizations to measure levels
of compliance in areas such as patch management, password policy, and configuration
management. According to GAO’s FISCAM, section 3.3, changes to an application should be
tested and approved before being put into production.

                                                 6
Ten of the twenty-one Medicare contractors had no identified gaps in the testing of information
security controls, while the remaining 11 had 1 to 3 gaps each. In total, 22 gaps were identified
in this area, with all 22 gaps assigned to high-impact subcategories.

Following are examples of gaps in testing of information security controls:

   •   The contractor did not consistently track and monitor weaknesses identified during a
       penetration test.

   •   The contractor did not implement a configuration management process to monitor
       security configuration settings on a quarterly basis for the mainframe platform.

   •   The contractor did not have evidence that it followed its documented change management
       process for all system software changes.

Without a comprehensive program for periodically testing and monitoring of information
security controls, management has no assurance that appropriate safeguards are in place to
adequately mitigate identified risks.

Security Program and System Security Plans

NIST SP 800-100, Information Security Handbook: A Guide for Managers, section 2.2.5, states
that an agency should ensure its information security policy is sufficiently current to
accommodate the information security environment and the agency mission and operational
requirements. Federal Information Processing Standards (FIPS) 200, Minimum Security
Requirements for Federal Information and Information Systems, and NIST SP 800-53, Control
PS-3, require organizations to screen employees before granting access to information and
information systems. The Executive Summary of NIST SP 800-18, Guide for Developing
Security Plans for Federal Information Systems, states that system security plans should provide
an overview of a system’s security requirements and describe the controls in place or planned for
meeting those requirements.

Twelve of the twenty-one Medicare contractors had no identified gaps in security program and
system security plans, while the remaining 9 had 1 to 3 gaps each. In total, 17 gaps were
identified in this area. Eleven gaps were assigned to high-impact subcategories.

Following are examples of gaps in security program and system security plans:

   •   The contractor did not complete background investigations for all selected employees
       before their hire dates.

   •   The contractor did not review all policies and procedures annually.

   •   The contractor’s system security plan did not accurately list each platform or device that
       supports Medicare claims processing.


                                                 7
If information security program requirements are not implemented and enforced, management
has no assurance that established system security controls will be effective in protecting valuable
assets, such as information, hardware, software, systems, and related technology assets that
support the organization’s critical missions.

Security Awareness Training

The Computer Security Act of 1987 (P.L. No. 100-235) requires periodic training in computer
security awareness and accepted computer practices for all employees who manage, use, or
operate Federal computer systems. Additionally, Federal regulations (5 C.F.R. § 930.301(a))
require that role-specific training be provided based on each user’s security responsibilities and
require agencies to provide training for employees with significant information security
responsibilities. The CMS Business Partners Systems Security Manual requires Medicare
contractors to document and monitor information security training activities.

Sixteen of the twenty-one Medicare contractors had no identified gaps in security awareness
training, while the remaining 5 had 3 to 4 gaps each. In total, 16 gaps were identified in this
area, with no gaps assigned to a high-impact subcategory. Following are examples of gaps in
security awareness training:

   •   The contractor did not formally track and monitor job-specific security training to ensure
       that employees received the minimal requirements stated in the policy.

   •   Employees did not complete security awareness refresher training.

Employees who are unaware of their security responsibilities or have not received adequate
training may be at increased risk of causing or exacerbating a computer security incident. If
security personnel are not provided specific job-related training, management has no assurance
that these employees can effectively perform their job responsibilities. Inadequately trained
employees could cause the loss, destruction, or misuse of sensitive information and information
technology (IT) assets.

Continuity of Operations Planning

According to NIST SP 800-34, Contingency Planning Guide for Federal Information Systems,
section 2.2, contingency planning represents a broad scope of activities designed to sustain and
recover critical information technology services following an emergency. Contingency planning
for information systems is part of an overall organizational program for achieving continuity of
operations for business operations.

Sixteen of the twenty-one Medicare contractors had no identified gaps in continuity of operations
planning, while the remaining 5 had 1 to 4 gaps each. In total, 13 gaps were identified in this
area, with 9 gaps assigned to a high-impact subcategory. Following are examples of gaps in
continuity of operations:




                                                 8
   •   The contractor did not arrange for an alternate data processing facility.

   •   The contractor did not perform disaster recovery testing.

   •   The contractor did not update documented results for continuity plan testing in the
       continuity plan in a timely manner.

If contingency planning activities are inadequate, even relatively minor interruptions of service
can result in lost or incorrectly processed data, which can cause financial losses, expensive
recovery efforts, and inaccurate or incomplete financial or management information.

RESULTS OF DATA CENTER TECHNICAL ASSESSMENTS

We present the results of the data center technical assessments in terms of gaps. As shown in
Table 4, the 7 Medicare data center technical assessment reports identified a total of 67 gaps.
The number of gaps per data center ranged from 0 to 44. The number of data centers with no
gaps increased from zero to three when compared with the results for FY 2008.

                             Table 4: Range of Data Center Gaps
                                           Number of Data Centers With
                     Total                1–5     6–10    11–20    21–40           41-50
             FY      Gaps      0 Gaps     Gaps   Gaps      Gaps    Gaps            Gaps
            2008      48          0         4       2       2        0               0
            2009      67          3         1       1       1        0               1

For FY 2009, CMS contracted with iFed to evaluate NIST security controls at seven data centers.
At five data centers, iFed’s testing was limited to a policy and procedure review only, which
included testing the following six NIST security control areas:

   •   Awareness and training

   •   Certification, accreditation, and security assessments

   •   Incident response

   •   Maintenance

   •   Media protection

   •   System and services acquisition

At one enterprise data center, iFed reviewed these six control areas, and it also performed
vulnerability scanning and a limited-scope assessment of the mainframe, which contributed to
testing the following NIST security control categories:


                                                 9
   •   Access control

   •   Configuration management

At one enterprise data center, iFed’s testing included the same six control areas and the
vulnerability scanning and limited-scope mainframe assessment plus the following six NIST
security controls:

   •   Access control

   •   Audit and accountability

   •   Configuration management

   •   Contingency planning

   •   Planning

   •   System and information integrity

iFed assigned each of the gaps to one of the security control areas. In a manner similar to that of
PwC, iFed categorized the risks associated with the individual gaps as high, medium, or low
based on the potential impact and likelihood of exploitation. Of the 67 gaps iFed identified
across all 7 data centers, 5 gaps were high risk, 30 gaps were medium risk, and 32 gaps were low
risk. Eighteen gaps were resolved and closed during or after iFed’s onsite visits to the data
centers, including 2 high-risk gaps, 10 medium-risk gaps, and 6 low-risk gaps. Hence, a total of
49 gaps at data centers required corrective action in FY 2009.

The total number of gaps identified in FY 2009 (67) was higher than the number identified in
FY 2008 (48), an increase of 19 gaps. This was mainly because 1 enterprise data center had 44
gaps identified by the vulnerability scan. We did not perform a detailed comparison of the
number of gaps identified within the security control categories tested for the 2 FYs because the
same categories were not tested by iFed at all data centers in FY 2009. CMS uses a rotational
approach in performing its technical assessments of data centers. Some categories are not tested
every year.

Table 5 presents the aggregate results reported for the seven data centers. Appendix F shows the
number of reported gaps at each data center by security control area.




                                                10
                            Table 5: Data Center Reported Gaps by
            National Institute of Standards and Technology Security Control Area
                                               No. of    No. of   No. of
                                   Total No.   Data      High- Medium-       No. of
           Security Control         of Gaps   Centers    Risk      Risk    Low-Risk
                  Area             Identified w/ Gaps    Gaps      Gaps      Gaps
        Configuration
                                      28         2        4         11        13
        management
        Access control                  16            2         1              8        7
        Media protection                 7            2         0              4        3
        System and services
                                         6            3         0              3        3
        acquisition
        Certification,
        accreditation, and security      2            1         0              1        1
        assessment
        Contingency planning             2            1         0             2         0
        Incident response                2            1         0             0         2
        Maintenance                      2            2         0             0         2
        Audit and accountability         1            1         0             1         0
        Awareness and training           1            1         0              0        1
         Total                          67                      5             30       32

Note: iFed did not report any gaps in the NIST security control areas of planning and systems
and information integrity for the one data center in which those areas were tested.

The following sections discuss the four security control areas with the highest number of gaps.

Configuration Management

GAO’s FISCAM, section 3.3, indicates that without proper configuration management, security
features could accidentally or intentionally be turned off. In addition, processing irregularities or
malicious code could be introduced that allows access to sensitive data, or a virus could be
introduced that disrupts processing. NIST SP 800-70, National Checklist Program for IT
Products—Guidelines for Checklist Users and Developers, identifies the use of security
configuration checklists as a way to improve the consistency of system security and help protect
against common and dangerous local and remote threats.

We noted configuration management gaps at the two enterprise data centers that were tested for
configuration management. Following are examples of gaps in this area:

    •    A server was missing a critical update that fixes security issues.



                                                 11
    •   A Web server was running unnecessary services that increased the risk of unauthorized
        access.

    •   A server was vulnerable to a man-in-the-middle attack, in which an unauthorized party
        intercepts traffic between an authorized computer and a wireless access point and uses
        that information to do something malicious, such as hijacking future traffic or obtaining
        sensitive information.

Access Control

According to GAO’s FISCAM, section 3.2, inadequate access controls diminish the reliability of
computerized data and increase the risk of destruction or inappropriate disclosure of data. Gaps
in access control create vulnerabilities in the confidentiality, integrity, and availability of
Medicare data and systems. Associated gaps in the configuration of systems software that
control access to systems can make computers vulnerable to unauthorized access.

We noted access control gaps at the two enterprise data centers that were tested for access
control. Following are examples of gaps in this area:

    •   An excessive number of users had the ability to make changes to sensitive system files.

    •   Weak encryption codes were in use by a remote server.

    •   A remote server had sensitive shared directories that unauthorized users could read.

Media Protection

According to the NIST SP 800-53, Control MP-3, an organization should mark removable
information system media and information system output indicating the distribution limitations,
handling caveats, and applicable security markings of the information. According to Control
MP-6, an organization should sanitize information system media, both digital and nondigital,
before disposal, release outside of the organization’s control, or reuse.

Of the seven data centers in which media protection was tested, two had control gaps in the area
of media protection. Following are examples of gaps in this area:

   •    Nondigital media were not subject to labeling requirements.

   •    The contractor had not obtained a complete sanitization certificate from the disposal
        contractor that documented the tapes that had been disposed of.

System and Services Acquisition

According to the NIST SP 800-53, Control SA-6, the organization should use software and
associated documentation in accordance with contract agreements and copyright laws and should


                                                  12
employ tracking systems for software and associated documentation protected by quantity
licenses to control copying and distribution.

Of the seven data centers in which system and services acquisition was tested, three had control
gaps in the area of system and services acquisition. Following are examples of gaps in this area:

   •   The contractor did not provide documentation showing that software, shareware, and
       associated documentation were deployed and maintained in accordance with license
       agreements and copyright laws.

   •   A list containing systems with both authorized and unauthorized software did not exist,
       and there was no tool to verify the inventory of installed software.

   •   The system used to track software licenses was inaccurate when compared with the
       number of licenses listed in the system security plan.

CONCLUSION

The work performed by PwC to evaluate contractor information security programs adequately
encompassed the eight FISMA requirements referenced in section 1874A of the Act. Gaps
reported during the PwC program evaluations were supported by documented evidence.

The scope of the work and sufficiency of documentation for all reported gaps were sufficient for
the majority of the data center technical assessments performed by iFed. However, in some
cases, the test plan documentation did not contain sufficient evidence that iFed performed all of
the testing procedures, nor were we able to trace all gaps presented in iFed’s reports to
supporting documentation for some of the weaknesses identified in the reports. In one case, we
were not able to determine whether iFed included all medium- and high-risk gaps in the report
because of inadequate working paper references in the test scripts.

RECOMMENDATION

We recommend that CMS review all contractor documentation related to future data center
technical assessments and ensure that the work performed complies with CMS contractual
requirements. At a minimum, this should include a review of test plans to ensure that the
contractor has completed all required testing procedures and a review of contractor working
papers to verify that reported gaps have been adequately supported, identified, and included in
the technical assessment reports.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS concurred with our recommendation. CMS also
stated that it would take the appropriate actions to address the identified issues. We have
included CMS’s comments in their entirety as Appendix G.




                                               13
APPENDIXES
            APPENDIX A: ASSESSMENT OF SCOPE AND SUFFICIENCY
                 FOR THE iFed DATA CENTER ASSESSMENTS

                      Office of Inspector General Criteria for Assessing
                                    iFed Working Papers
                   Sufficient Evidence           Sufficient
                   That All Work Was       Documentation for All Reported All Medium-
 Data Center          Performed?              Reported Gaps?          and High-Risk Gaps?
      1                    Yes                      Yes                       Yes
      2                    Yes                      Yes                       Yes
      3                    Yes                      Yes                       Yes
      4                     No                       No                       No
      5                    Yes                      Yes                       Yes
      6                    Yes                      Yes                       Yes
      7                     No                       No                       Yes


iFed, LLC = iFed
                                APPENDIX B: LIST OF GAPS BY
                   FEDERAL INFORMATION SECURITY MANAGEMENT ACT OF 2002
                         CONTROL AREA AND MEDICARE CONTRACTOR

                                             Control Areas (With Impact Levels)
                                        Security
                            Policies    Program
                              and          and                  Testing of                         Continuity
              Periodic     Procedures    System     Security   Information                             of
                Risk       To Reduce    Security   Awareness     Security    Remedial   Incident   Operations
Medicare     Assessments      Risk        Plans     Training     Controls     Actions   Response    Planning    Total
Contractor     (High)        (High)      (High)    (Medium)       (High)      (High)     (High)      (High)     Gaps
    1             1             1           3          3             2           1          0          4        15
    2             1             1           3          3             2           1          0          4        15
    3             0             0           0          0             0           0          0          0         0
    4             0             0           0          0             0           0          0          0         0
    5             0             0           3          0             1           1          0          0         5
    6             0             3           1          0             2           0          0          1         7
    7             0             0           0          0             0           0          0          0         0
    8             0             0           0          0             0           0          0          0         0
    9             0             0           0          0             0           0          0          0         0
   10             0             0           0          0             0           0          0          0         0
   11             0             0           0          0             0           0          0          0         0
   12             0             0           0          0             0           0          0          0         0
   13             0             0           0          0             0           0          0          0         0
   14             0             0           0          0             0           0          0          0         0
   15             0             1           1          3             2           1          1          2        11
   16             0             1           1          3             2           1          1          2        11
   17             1             0           3          4             3           1          0          0        12
   18             0             0           0          0             2           0          1          0         3
   19             0             0           0          0             2           0          1          0         3
   20             0             2           1          0             2           1          0          0         6
   21             0             2           1          0             2           1          0          0         6
  Total           3            11          17         16            22           8          4         13        94

         Note: Impact levels for Federal Information Security Management Act of 2002 (FISMA)
         control areas were derived by PricewaterhouseCoopers by taking the highest value from among
         the subcategories.
APPENDIX C: PERCENTAGE CHANGE IN GAPS PER MEDICARE CONTRACTOR

Contractor             FY 2008 GAPS                  FY 2009 GAPS             % Change
       1                      4                           15                   275%
       2                    N/A                           15                     N/A
       3                      4                            0                    (100)
       4                      3                            0                    (100)
       5                      6                            5                     (17)
       6                      1                            7                     600
       7                      0                            0                       0
       8                      1                            0                    (100)
       9                      0                            0                       0
      10                    N/A                            0                     N/A
      11                      0                            0                       0
      12                      6                            0                    (100)
      13                      5                            0                    (100)
      14                     6                             0                    (100)
      15                     20                           11                     (45)
      16                     20                           11                     (45)
      17                      6                           12                     100
      18                      4                            3                     (25)
      19                      3                            3                       0
      20                      7                            6                     (14)
      21                      8                            6                     (25)
Contractors No
  Longer in
   Program                    57                            -                      -
     Total                   161                           94                   (42%)

Note: Contractors listed as “N/A” were new Medicare Administrative Contractors in FY 2009.


FY = fiscal year
        APPENDIX D: MEDICARE CONTRACTOR CHANGE IN TOTAL GAPS
       BY FEDERAL INFORMATION SECURITY MANAGEMENT ACT OF 2002
                            CONTROL AREA


          60
          50
          40
Gaps




                                                          FY2008
          30
                                                          FY2009
          20
          10
           0




                       FISMA Control Area
                                                                                      Page 1 of 5

     APPENDIX E: RESULTS OF MEDICARE CONTRACTOR EVALUATIONS
     FOR FEDERAL INFORMATION SECURITY MANAGEMENT ACT OF 2002
         CONTROL AREAS WITH THE GREATEST NUMBER OF GAPS

The “impact level” shown in Tables 1 through 4 on the following pages refers to the level of
adverse impact that could result from successful exploitation of a vulnerability in any of the
FISMA control areas. Impact can be described as high, medium, or low in light of the
organization’s mission and criticality and the sensitivity of the systems and data involved.
PricewaterhouseCoopers assigned a rating of high or medium impact to each of the subcategories
in the agreed-upon procedures developed by the Centers for Medicare & Medicaid Services
(CMS). It is important to note that the impact levels were assigned to subcategories of the
FISMA control areas, not the individual gaps identified within the control areas or subcategories.
Individual gaps were assigned an overall risk level on a subjective basis by
PricewaterhouseCoopers after taking into consideration the impact and likelihood of occurrence.
                                                                                         Page 2 of 5

TESTING OF INFORMATION SECURITY CONTROLS

The Medicare contractor information security program evaluations covered five subcategories
related to the testing of information security controls. The evaluation reports identified a total of
22 gaps in this FISMA control area.

                    Table 1: Testing of Information Security Controls Gaps
                                                        Total No. of Gaps           Subcategory
                        Subcategory                       in This Area              Impact Level
     Management reports exist for the review and
     testing of information security policies and
     procedures, including network risk assessments,
1                                                               4                        High
     accreditations and certifications, internal and
     external audits, security reviews, and penetration
     and vulnerability assessments.
     Annual reviews and audits are conducted to
     ensure compliance with FISMA guidance from
     the Office of Management and Budget for
2    reviews of security controls, including logical            9                        High
     and physical security controls, platform
     configuration standards, and patch management
     controls.
     Remedial action is being taken for issues noted in
3                                                               3                        High
     audits.
4    Change control procedures exist.                           2                        High
     Change control procedures are tested by
5                                                               4                        High
     management to ensure they are in use.
       Total                                                   22
                                                                                       Page 3 of 5

SECURITY PROGRAM AND SYSTEM SECURITY PLANS

The Medicare contractor information security program evaluations assessed 10 subcategories
related to security program and system security plans. The evaluation reports identified a total of
17 gaps in this FISMA control area.

                 Table 2: Security Program and System Security Plan Gaps
                                                       Total No. of
                                                       Gaps in This  Subcategory Impact
                        Subcategory                       Area             Level
 1   A security plan is documented and approved.            1               High
     A security management structure has been
 2                                                          2               High
     established.
     Information security responsibilities are clearly
 3                                                          0               High
     assigned.
 4   Owners and users are aware of security policies.       0               High
     Hiring, transfer, termination, and performance
 5                                                          0               High
     policies address security.
     Management has documented that it periodically
     assesses the appropriateness of security policies
 6                                                          2               High
     and compliance with them, including testing of
     security policies and procedures.
     Management ensures that corrective actions are
 7                                                          3               High
     effectively implemented.
 8   The plan is kept current.                              1             Medium
 9   Employee background checks are performed.              4             Medium
     Security employees have adequate security
10                                                          4             Medium
     training and expertise.
       Total                                               17
                                                                                         Page 4 of 5

SECURITY AWARENESS TRAINING

The Medicare contractor information security program evaluations assessed six subcategories
related to security awareness training. The evaluation reports identified a total of 16 gaps in this
FISMA control area.

                          Table 3: Security Awareness Training Gaps
                                                        Total No. of Gaps         Subcategory
                      Subcategory                         in This Area            Impact Level
    Employees have received a copy of the Rules
1                                                                5                   Medium
    of Behavior.
    Employee training and professional
2   development have been documented and                         5                   Medium
    formally monitored.
    Mandatory annual refresher training for
3                                                                5                   Medium
    security occurs routinely.
    Systemic methods are employed to make
4   employees aware of security (e.g., posters,                  0                   Medium
    booklets).
    Employees have received a copy of or have
5   easy access to agency security procedures and                0                   Medium
    policies.
    Security professionals have received specific
    training for their job responsibilities and the
6   type and frequency of application-specific                   1                   Medium
    training provided to employees and contractor
    personnel is documented and tracked.
      Total                                                      16
                                                                                        Page 5 of 5

CONTINUITY OF OPERATIONS PLANNING

The Medicare contractor information security program evaluations assessed 13 subcategories
related to continuity of operations planning. The evaluation reports identified a total of 13 gaps
in this FISMA control area.

                       Table 4: Continuity of Operations Planning Gaps
                                                      Total No. of
                                                      Gaps in This   Subcategory Impact
                       Subcategory                        Area             Level
     Emergency processing priorities have been
1                                                           0               High
     established.
     Adequate environmental controls have been
2                                                           0               High
     implemented.
     Hardware maintenance, problem management,
3    and change management procedures exist to              0               High
     help prevent unexpected interruptions.
     Policies and procedures for disposal of data and
4    equipment exist and include applicable Federal         2               High
     security and privacy requirements.
5    An up-to-date contingency plan is documented.              0                   High

6    The plan is periodically tested.                           0                   High
     Results are analyzed and contingency plans
7                                                               1                   High
     adjusted accordingly.
     Physical security controls exist to protect
8                                                               0                   High
     information technology resources.
     Critical data and operations are formally
9                                                               2                  Medium
     identified and prioritized.
     Resources supporting critical operations are
10                                                              2                  Medium
     identified in contingency plans.
     Data and program backup procedures have been
11                                                              4                  Medium
     implemented.
     Staff has been trained to respond to
12                                                              2                  Medium
     emergencies.
     Arrangements have been made for alternate data
13                                                              0                  Medium
     processing and telecommunications facilities.
      Total                                                    13
  APPENDIX F: LIST OF GAPS BY NATIONAL INSTITUTE OF STANDARDS AND
       TECHNOLOGY SECURITY CONTROL AREA AND DATA CENTER

                                               Data Center
  NIST Security
                                                                               Total Gaps
  Control Area          1       2       3       4        5        6      7
    Configuration
    Management         N/A    N/A       26     N/A      N/A     N/A      2         28
   Access Control      N/A    N/A       12     N/A      N/A     N/A      4         16

  Media Protection      0       0       1       6        0        0      0          7
     System and
      Services
     Acquisition        1       0       2       0        0        0      3          6
    Certification,
  Accreditation, and
      Security
     Assessment         2       0       0       0        0        0      0          2
    Contingency
      Planning         N/A    N/A      N/A     N/A      N/A     N/A      2          2

  Incident Response     0       0       2       0        0        0      0          2

    Maintenance         1       0       1       0        0        0      0          2
   Awareness and
     Training           0       0       0       0        0        0      1          1
     Audit and
   Accountability      N/A    N/A      N/A     N/A      N/A     N/A      1          1

        Total           4       0       44      6        0        0      13        67

NIST = National Institute of Standards and Technology

N/A = NIST Security Control Area was not tested at the Data Center

Note: iFed did not report any gaps in the NIST security control areas of planning and system and
information integrity for the enterprise data center in which those areas were tested.
APPENDIX G: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS 



       /'-''£<0 ..,
   (         ~          DEPARTMENT OF HEALTH & HUMAN SERVICES
   ,~
                                                                                                 Administrator
                                                                                                 wasrong:on. DC 20201




                      DATE:
                                      AUG 0 4 WI

                      TO: 	         Daniel R. Levinson
                                    Inspector General

                      FROM:         Donald M. Berwick, M.D'.. :::::::::s~~?}'~""""r
                                    Admi nistrator            ...:-­

                      SURJECT: 	 Office oflnspector General (OIG) Draft Report. Review of Medicare Contractor
                                    Information Security Program Evaluations for Fiscal Year 2009 (A-IB-IO-30300)


                      The Centers for Medicare & Medicaid Services (eMS) appreciates the opportunity to review and
                      comment on !he 010 draft report titled. " Review of Medicare Contractor Information Security
                      Program Evaluations for Fiscal Year 2009" (A-18-! 0-]0300). We appreciate the CIG' s efforts
                      to assess the scope and sufficiency of Med icare contractor information security program
                      evaluations and data center technical assessmcnls.

                      OIG RECOMMENDATION:

                      The OIG recommencb th at eMS review all contractor documentation related to future data
                      center technical assessments and ensure that the won. perfonned complies with eMS contractual
                      requirements, At a minimum. this should include a review of test plans to ensure that the
                      contractor has completed al1 required testing procedures and a review of contractor working
                      papen; to verify that reported gaps have been adequately supported, identified, and included in
                      the technical assessment reports.

                      eMS RESPONSE:

                      We concur with this recommcndation. We will ensure that future work related to data center
                      techn ical assessments complies with eMS contractual requirements, as wen as OIG
                      requirements. Starting in fiscal year 2010, we expanded the scope of the contract for the existing
                      oversight contractor responsihle for perfonning the 912 evaluations to include these additional
                      elements.

                      We thank the OIG for their thoughtful recommendation and we appreciate the OIO's
                      constructive input. Additionally, we look forward to won.ing in conjunction with 010 to
                      facilitate continual improvement in administering the Medicare program.
